No. ______
In the

Supreme Court of the United States
__________________

WESTERN OILFIELDS SUPPLY COMPANY,
DOING BUSINESS AS RAIN FOR RENT,
Petitioner,
v.
SECRETARY OF LABOR AND FEDERAL MINE SAFETY
AND HEALTH REVIEW COMMISSION,
Respondents.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the District of Columbia Circuit

__________________

PETITION FOR WRIT OF CERTIORARI
__________________
JOSEPH CHRISTOPHER HALL
ROSE LAW FIRM,
A PROFESSIONAL ASSOCIATION
P.O. Box 4800
Fayetteville, Arkansas 72702
(479) 695-1330
jhall@roselawfirm.com

BYRON J. WALKER
Counsel of Record
TIM BOE
ROSE LAW FIRM,
A PROFESSIONAL ASSOCIATION
120 East Fourth Street
Little Rock, Arkansas 72201
(501) 375-9131
tboe@roselawfirm.com
bwalker@roselawfirm.com

Counsel for Petitioner
June 4, 2020
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED
In Donovan v. Dewey, this Court held that the
warrantless inspection scheme in the Federal Mine
Safety and Health Act of 1977 (“the Mine Act”) does not
violate the Fourth Amendment because, inter alia, the
certainty and regularity of its application provides a
constitutionally adequate substitute for a warrant. See
452 U.S. 594, 602–03 (1981). The Mine Act gives
operators of mines the right to accompany inspectors
from the Mine Safety and Health Administration
(“MSHA”) at every stage of such warrantless
inspections. See 30 U.S.C § 813(f). These are commonly
referred to as “walkaround rights.” Decisions of the
Federal Mine Safety and Health Review Commission
(“the Commission”) have found that MSHA inspectors
violated the Due Process Clause by failing to provide
walkaround rights as required by statute. However, in
this case the D.C. Circuit held that an MSHA
inspector’s refusal to provide walkaround rights to the
petitioner was not a constitutional violation, despite the
absence of any exigencies that would have made the
provision of such rights impracticable. The questions
presented in this case are:
1. Whether it violates the Due Process Clause for an
MSHA inspector arbitrarily to refuse a mine
operator an opportunity to accompany the inspector
on his investigation of that operator’s property.
2. Whether it violates the Fourth Amendment for an
MSHA inspector arbitrarily to refuse a mine
operator the opportunity to accompany the inspector
on his investigation of that operator’s property.

ii
PARTIES TO THE PROCEEDINGS
AND RULE 29.6 STATEMENT
All parties to the proceedings are listed in the
caption.
Petitioner Rain for Rent has no parent corporation.
No publicly held company owns 10% or more of Rain for
Rent’s stock.
RULE 14.1(b)(iii) STATEMENT
The proceedings in Western Oilfields Supply Co.,
d/b/a Rain for Rent v. Sec’y of Labor and Fed. Mine
Safety and Health Review Comm’n, Case No. 18-1296
(D.C. Cir.), are directly related to the instant case in
this Court. The D.C. Circuit entered judgment in this
matter on January 7, 2020.

iii
TABLE OF CONTENTS
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDINGS AND
RULE 29.6 STATEMENT . . . . . . . . . . . . . . . . . . . . . ii
RULE 14.1(b)(iii) STATEMENT . . . . . . . . . . . . . . . . ii
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . . v
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATUTORY AND CONSTITUTIONAL
PROVISIONS INVOLVED . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 4
A. Factual background. . . . . . . . . . . . . . . . . . . . . 4
B. Procedural history . . . . . . . . . . . . . . . . . . . . . . 6
REASONS FOR GRANTING THE PETITION . . . 11
I.

The Commission’s Due Process and Fourth
Amendment jurisprudence is inconsistent
and unclear . . . . . . . . . . . . . . . . . . . . . . . . . . 11

II.

This Court’s precedent is ambiguous on
whether the Constitution requires MSHA
inspectors to comply with the Mine Act’s
procedural requirements. . . . . . . . . . . . . . . . 19

III.

The D.C. Circuit’s opinion effectively obviates
the Mine Act’s prohibition of forcible entry by
MSHA inspectors. . . . . . . . . . . . . . . . . . . . . . 23

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

iv
APPENDIX
Appendix A Opinion in the United States Court of
Appeals for the District of Columbia
Circuit
(January 7, 2020) . . . . . . . . . . . . . App. 1
Appendix B Opinion in the Federal Mine Safety
and Health Review Commission
(August 22, 2018) . . . . . . . . . . . . App. 15
Appendix C O r d e r
Denying
Petition for
Discretionary Review by the Federal
Mine Safety and Health Review
Commission
(October 1, 2018) . . . . . . . . . . . . . App. 45

v
TABLE OF AUTHORITIES
CASES
Big Ridge, Incorporated v. Secretary of Labor,
Mine Safety and Health Administration,
36 FMSHRC 1677 (June 19, 2014). . . . . . . . . . . 17
Donovan v. Dewey,
452 U.S. 594 (1981). . . . . . . . . . . . . . . . . . . passim
Elkins v. United States,
364 U.S. 206 (1960). . . . . . . . . . . . . . . . . . . . . . . 14
Mapp v. Ohio,
367 U.S. 643 (1961). . . . . . . . . . . . . . . . . . . . . . . 14
New York v. Burger,
482 U.S. 691 (1987). . . . . . . . . . . . . . . . . . . . . . . 22
SeaWorld of Fla., LLC v. Perez,
748 F.3d 1202 (D.C. Cir. 2014) . . . . . . . . . . . . . . 18
Sec. of Labor, Mine Safety and Health Admin. v.
DJB Welding Corp.,
32 FMSHRC 728 (June 28, 2010). . . . . . . . . 16, 17
Sec. of Labor, Mine Safety and Health Admin. v.
SCP Investments, LLC,
31 FMSHRC 821 (Aug. 6, 2009) . . . . . . . . . passim
Sec. of Labor, Mine Safety and Health Admin. v.
SCP Invs., LLC, 32 FMSHRC 119,
2010 WL 390288 (Jan. 5, 2010) . . . . . . . . . . 15, 16
Terry v. Ohio,
392 U.S. 1 (1968). . . . . . . . . . . . . . . . . . . . . . . . . 14

vi
United States v. Leon,
468 U.S. 897 (1984). . . . . . . . . . . . . . . . . . . . . . . 14
Weeks v. United States,
232 U.S. 383 (1914). . . . . . . . . . . . . . . . . . . . . . . 14
Wester Energy, Inc. v. Fed. Energy Regulatory
Comm’n, 473 F.3d 1239 (D.C. Cir. 2007) . . . . . . 18
CONSTITUTION AND STATUTES
U.S. Const. amend. IV . . . . . . . . . . . . . . . . . . . passim
U.S. Const. amend. V . . . . . . . . . . . . . . . . . . . . passim
28 U.S.C. § 1254(1). . . . . . . . . . . . . . . . . . . . . . . . . . . 1
30 U.S.C. § 802(d). . . . . . . . . . . . . . . . . . . . . . . . . . 1, 7
30 U.S.C. § 803 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1, 7
30 U.S.C. § 813(a). . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
30 U.S.C. § 813(f) . . . . . . . . . . . . . . . . . . . . . . . passim
30 U.S.C. § 815(d). . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
30 U.S.C. § 816(a)(1) . . . . . . . . . . . . . . . . . . . . . . . . . 7
30 U.S.C. § 818 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
30 U.S.C. § 818(a). . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
30 U.S.C. § 818(a)(1)(D) . . . . . . . . . . . . . . . . . 3, 21, 22
30 U.S.C. § 823(d)(1) . . . . . . . . . . . . . . . . . . . . . . 7, 18
REGULATIONS
30 C.F.R. § 46.5 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

vii
RULES
Sup. Ct. R. 10 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
OTHER AUTHORITIES
MSHA, Program Policy Manual Volume I:
Interpretation and Guidelines on Enforcement of
the 1977 Act 14, (Nov. 2013), available at
https://arlweb.msha.gov/REGS/COMPLIAN/PP
M/PDFVersion/PPM%20Vol%20I.pdf
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6, 9, 10, 11, 23

1
Rain for Rent respectfully petitions for a writ of
certiorari to review the judgment of the United States
Court of Appeals for the District of Columbia Circuit in
this case.
OPINIONS BELOW
The District of Columbia Circuit panel opinion is
reported at 946 F.3d 584 and reproduced in the
appendix hereto (“App.”) at 1. The decision of the
administrative law judge (App., infra, 15–44) is
reported at 40 FMSHRC 1267, and is also available at
2018 WL 4184673.
JURISDICTION
The judgment of the court of appeals was entered on
January 7, 2020. This Court has jurisdiction to review
that judgment under 28 U.S.C. § 1254(1).
STATUTORY AND CONSTITUTIONAL
PROVISIONS INVOLVED
The Federal Mine Safety and Health Act of 1977
(“the Mine Act”) requires that “[e]ach coal or other
mine, the products of which enter commerce, or the
operations or products of which affect commerce, and
each operator of such mine, and every miner in such
mine shall be subject to the provisions of this chapter.”
30 U.S.C. § 803.
The Mine Act further states that “‘operator’ means
any owner, lessee, or other person who operates,
controls, or supervises a coal or other mine or any
independent contractor performing services or
construction at such mine.” 30 U.S.C § 802(d).

2
30 U.S.C § 813(a) provides, in relevant part, that:
Authorized representatives of the Secretary or
the Secretary of Health and Human Services
shall make frequent inspections and
investigations in coal or other mines each year
for the purpose of (1) obtaining, utilizing, and
disseminating information relating to health and
safety conditions, the causes of accidents, and
the causes of diseases and physical impairments
originating in such mines, (2) gathering
information with respect to mandatory health or
safety standards, (3) determining whether an
imminent danger exists, and (4) determining
whether there is compliance with the mandatory
health or safety standards or with any citation,
order, or decision issued under this subchapter
or other requirements of this chapter. In
carrying out the requirements of this subsection,
no advance notice of an inspection shall be
provided to any person, except that in carrying
out the requirements of clauses (1) and (2) of
this subsection, the Secretary of Health and
Human Services may give advance notice of
inspections.
30 U.S.C. § 813(f) further provides, in relevant part,
that:
Subject to regulations issued by the Secretary, a
representative of the operator and a
representative authorized by his miners shall be
given an opportunity to accompany the
Secretary or his authorized representative
during the physical inspection of any coal or

3
other mine made pursuant to the provisions of
subsection (a), for the purpose of aiding such
inspection and to participate in pre- or postinspection conferences held at the mine.
And 30 U.S.C. § 818(a)(1)(D) states that:
The Secretary may institute a civil action for
relief, including a permanent or temporary
injunction, restraining order, or any other
appropriate order in the district court of the
United States for the district in which a coal or
other mine is located or in which the operator of
such mine has his principal office, whenever
such operator or his agent . . . refuses to permit
the inspection of the coal or other mine . . . .
The Fourth Amendment to the Constitution of the
United States guarantees that:
The right of the people to be secure in their
persons, houses, papers, and effects, against
unreasonable searches and seizures, shall not be
violated, and no Warrants shall issue, but upon
probable cause, supported by Oath or
affirmation, and particularly describing the
place to be searched, and the persons or things
to be seized.
Finally, the Due Process Clause of the Fifth
Amendment to the Constitution of the United States
ensures that:
No person shall . . . be deprived of life, liberty, or
property, without due process of law . . . .

4
STATEMENT OF THE CASE
This case concerns an inspection and related
citation and fine that was imposed on petitioner Rain
for Rent by the Mine Safety and Health Administration
(“MSHA”). Those implicate several of our most
fundamental constitutional rights, with significant
consequences for closely regulated industries. In a
nutshell, the question here is simple but highly
important: do MSHA inspectors violate the Due Process
Clause or the Fourth Amendment when they
arbitrarily refuse to follow the procedures set forth in
the Mine Act and in their own agency’s directives?
The Federal Mine Safety and Health Review
Commission (“the Commission”) has issued a series of
irreconcilable decisions on this question. Following on
those decisions the instant matter found its way to the
D.C. Circuit, which effectively held that, so far as the
Constitution is concerned, MSHA inspectors are free to
deviate from statutorily mandated procedures without
consequence.
The straightforward and undisputed nature of the
facts in this case make it an excellent opportunity for
this Court to restore coherence—not to mention basic
constitutional norms—to this badly jumbled area of the
law.
A. Factual background.
Rain for Rent provides pumps for use in mines, and
furnishes ongoing maintenance for those pumps as
needed. On February 8, 2017, a Rain for Rent
employee, Jaime Tejeda, drove a company truck onto
the parking area outside the entrance to an

5
aboveground mine in Monterey County, California (the
“Natividad Plant”). He was there to service a pump
that he had previously installed. Mr. Tejeda parked
the truck on level ground approximately ten yards from
the office door. He then went directly from his truck
into the front office to sign in and obtain the required
permission to enter the mine site itself.
At that same time, an MSHA inspector (the
“Inspector”) was also in the parking lot, preparing to
begin the second day of an eleven-day inspection at the
Natividad Plant. The Inspector watched Mr. Tejeda
pull in, park the truck, and walk inside the office.
Although not noted in his contemporaneous notes, the
Inspector testified that he saw the truck rock back and
forth when Mr. Tejeda exited it, leading him to suspect
that the truck’s parking brake had not been set. While
Mr. Tejeda was inside the office, the Inspector walked
up to the truck to examine it. Peering through the
driver’s-side and passenger’s-side windows, he was
unable to see whether the parking brake was set.
It is undisputed that the Inspector did not perceive
any exigent circumstances or imminent hazards when
he inspected the truck. It is also undisputed that the
Inspector knew where Tejeda was, understood what he
was doing (signing in), and knew he would return to
the truck imminently. Nevertheless, the Inspector
opened the truck’s door, without attempting to get Mr.
Tejeda’s permission to do so, and began searching and
photographing the interior of the truck. Instead of
doing this, the Inspector could have sought Mr.
Tejeda’s attention as he exited the parked truck,
waited minutes for Mr. Tejeda to return, or walked ten

6
yards from the truck to the office where Mr. Tejeda was
signing in, to inform Mr. Tejeda of the Inspector’s
presence and desire to search the truck. Doing any of
those things would have imposed no burden on the
Inspector and would have been consistent with the
MSHA Program Policy Manual, which requires its
inspectors to make “every reasonable effort” at
providing “parties with an opportunity to participate in
the physical inspection . . . and in all pre-inspection
and post-inspection conferences.” See MSHA, Program
Policy Manual Volume I: Interpretation and Guidelines
on Enforcement of the 1977 Act 14, (Nov. 2013),
available at https://arlweb.msha.gov/REGS/COMPLIAN
/PPM/PDFVersion/PPM%20Vol%20I.pdf (hereinafter
“PPM”). And yet, this Inspector made no effort at all to
obtain Mr. Tejeda’s participation or consent, even
though he knew that Mr. Tejeda was only thirty feet
away and soon to return.
During the search, Mr. Tejeda returned from the
office to the truck, where he encountered the Inspector
still photographing the interior with the door open.
The Inspector identified himself, and informed Mr.
Tejeda that he was going to issue a citation and penalty
for not setting the parking brake. That citation was
issued, and this case arose from it.
B. Procedural history.
Rain for Rent contested the citation under 30 U.S.C.
§ 815(d), and a hearing was held before an
administrative law judge (“ALJ”) on May 15, 2018. In
an August 22, 2018 opinion, the ALJ affirmed the
citation and ordered Rain for Rent to pay the Secretary
of Labor a fine. See App., infra, 44. Rain for Rent filed

7
a petition for discretionary review with the
Commission, which was denied on October 1, 2018.
App., infra, 45. Thus the ALJ’s decision became the
final decision of the Commission. See 30 U.S.C.
§ 823(d)(1).
Rain for Rent filed a petition for review of the
Commission’s decision in the United States Court of
Appeals for the D.C. Circuit under 30 U.S.C.
§ 816(a)(1). In that appeal, Rain for Rent advanced
three arguments, all of which were ultimately rejected
by the D.C. Circuit.
First, Rain for Rent argued that the MSHA
Inspector lacked jurisdiction to issue the citation
because Mr. Tejeda was not an “operator of [a] mine”
within the meaning of 30 U.S.C. § 803, as he was not
“performing services or construction at such mine,” id.
§ 802(d), at the time the citation was issued. The D.C.
Circuit rejected that argument for reasons that are not
germane here; although Rain for Rent respectfully
disagrees with the D.C. Circuit on this point, it
recognizes that this issue may not implicate the
considerations that govern review on certiorari under
Supreme Court Rule 10.
Second, Rain for Rent argued that the MSHA
Inspector violated Rain for Rent’s Fourth Amendment
right against warrantless searches and seizures by
intruding into the truck without first attempting to
obtain and allow walkaround rights. Rain for Rent
relied on this Court’s decision in Donovan v. Dewey,
which held, inter alia, that the Mine Act’s warrantless
inspection scheme does not violate the Fourth
Amendment because it includes specific procedural

8
mechanisms that sufficiently accommodate and protect
the privacy concerns of mine operators. See 452 U.S.
594, 604–05 (1981). One such accommodation is the
statutory requirement that when a mine operator
refuses to permit an inspector to enter the premises,
the Secretary of Labor must file a civil action in federal
court to obtain an injunction against future refusals.
See 30 U.S.C. § 818(a). In other words, as this Court
observed in Dewey, “[t]he Act prohibits forcible entries.”
452 U.S. at 604. The obvious predicate to this, as Rain
for Rent argued below, is that the statutory provision
of the Mine Act must actually be complied with for the
Fourth Amendment to be satisfied. Here, that was not
done.
The D.C. Circuit rejected this argument, observing
that this Court’s decision in “Dewey is, frankly,
ambiguous as to whether” its discussion of the Mine
Act’s prohibition of forcible entry “is part of its Fourth
Amendment analysis, or simply a description of an
additional—but not constitutionally required—
protection afforded by the Mine Act.” See App., infra,
13. Regardless, the D.C. Circuit reasoned that the
Mine Act’s warrantless inspection scheme was
complied with because the Act does not actually create
a freestanding right to refuse entry to MSHA; rather,
in the D.C. Circuit’s view, “it creates only a prohibition
against forcible entry when entry is refused.” See App.,
infra, 14. And here, entry was not refused because the
Inspector purposefully denied Mr. Tejeda the
opportunity to refuse entry into the truck.
Rain for Rent’s third argument before the D.C.
Circuit was that the MSHA Inspector was required by

9
statute and by his own agency’s directives to at least
attempt to notify Mr. Tejeda in advance of the
impending entry into the truck, and that his failure to
do so was a violation of Rain for Rent’s right to Due
Process.
30 U.S.C. § 813(f) requires that “a
representative of the operator . . . shall be given an
opportunity to accompany the Secretary or his
authorized representative during the physical
inspection of any . . . mine . . . .” As noted above,
MSHA’s own PPM requires its inspectors to make
“every reasonable effort” at providing “parties with an
opportunity to participate in the physical inspection of
the mine and in all pre-inspection and post-inspection
conferences.” If the Inspector had complied with these
requirements, Mr. Tejeda would have had the
opportunity to refuse permission for the Inspector to
enter the truck.
The D.C. Circuit rejected this argument as well. It
first reasoned, again, that the Mine Act does not create
a freestanding right of refusal. See App., infra, 8–9.
This elides the more fundamental question of whether
the MSHA Inspector had a duty to comply with the
requirements of § 813(f) and of the PPM that he make
some effort, if not “every reasonable effort”, to give Mr.
Tejeda an opportunity to accompany his inspection. In
answer to that question, the D.C. Circuit pointed to the
fact that § 813(f) “say[s], somewhat cryptically, that
‘compliance with this subsection shall not be a
jurisdictional prerequisite to the enforcement of any
provision of this chapter.’” See App., infra, 10 (internal
alterations omitted).
Then, it reasoned that
“[w]hatever the ‘not a jurisdictional prerequisite to
enforcement’ language means, it must at least mean

10
that a harmless violation does not preclude
enforcement. Otherwise, compliance with section
[813(f)] would effectively be an absolute prerequisite,
whether denominated as ‘jurisdictional’ or something
else.” Id. Finally, the D.C. Circuit found that any
failure of this Inspector to comply with § 813(f) was
harmless, because if Mr. Tejeda had been asked, he
would have had no meritorious grounds for refusing
entry to the Inspector.
The D.C. Circuit’s opinion committed several critical
oversights on this last issue. For one, its calculation of
harm did not include any assessment of the harm to
Rain for Rent’s privacy interests—which, as this Court
recognized in Dewey, a statutory warrantless
inspection scheme must accommodate in order to
comport with the Fourth Amendment. Second, the
D.C. Circuit never addressed the significance of
MSHA’s own implementation of § 813(f)’s walkaround
rights through the PPM’s directives to inspectors,
which plainly were not complied with here. The D.C.
Circuit’s failure to appreciate that the Inspector
violated § 813(f) and that he also violated his own
agency’s regulations implementing that statute,
resulted in a violation of Rain for Rent’s Due Process
rights.
The D.C. Circuit’s opinion was unanimous.
Judgment denying Rain for Rent’s petition for review
was entered on January 7, 2020, from which this
petition for a writ of certiorari follows.

11
REASONS FOR GRANTING THE PETITION
This case provides an excellent vehicle for this
Court to bring much-needed clarity to an intersection
of constitutional and administrative law. The material
facts are straightforward and not in dispute: the MSHA
Inspector searched Rain for Rent’s truck after making
no effort to give its representative the opportunity to
accompany him or object. He failed to afford Rain for
Rent the Mine Act’s walkaround rights and failed to
comply with his own agency’s directives on walkaround
rights. Thus the legal issues are cleanly presented: is
it a violation of the Due Process Clause or of the Fourth
Amendment for an MSHA inspector arbitrarily to
refuse to comply with 30 U.S.C. § 813(f)’s requirement
that “a representative of the operator . . . shall be given
an opportunity to accompany the Secretary or his
authorized representative during the physical
inspection of any . . . mine,” and with the MSHA PPM’s
requirement that inspectors make “every reasonable
effort” at providing “parties with an opportunity to
participate in the physical inspection of the mine and
in all pre-inspection and post-inspection conferences”?
I.

The Commission’s Due Process and Fourth
Amendment jurisprudence is inconsistent
and unclear.

The instant case is not the first time the
Commission has been presented with an MSHA
inspector’s refusal to honor a mine operator’s
walkaround rights. In a series of decisions spanning a
little over a decade, the Commission has attempted to
define constitutional constraints on warrantless
inspections. But in so doing, it, at first gradually,

12
conflated Fourth Amendment and Due Process
principles, and then, ultimately, created a confused
jurisprudence that calls into question whether there
are any effective constitutional constraints at all on
this warrantless inspection regime.
The story begins with a case from eleven years ago,
in which the Commission produced a fractured set of
opinions with no majority in the case of Secretary of
Labor, Mine Safety and Health Administration (MSHA)
v. SCP Investments, LLC, 31 FMSHRC 821 (Aug. 6,
2009) (“SCP I”). In that case, which had facts
somewhat similar to the instant one, an MSHA
inspector refused to permit a mine operator to
accompany him on an inspection because the operator
did not have twenty-four hours of new miner training
as required by 30 C.F.R. § 46.5. See 31 FMSHRC at
824. The ALJ found this to be a violation of the
operator’s walkaround rights, and as a sanction he
dismissed all of the citations resulting from that
inspection. See id. at 826. On review, three of the four
commissioners agreed with the ALJ that the inspector
had violated the operator’s walkaround rights, as
section 46.5 was not a proper basis for excluding an
operator from an inspection; but they believed it was
improper for the ALJ to have vacated the citations
without first considering the effect of the denial on the
operator’s ability to present its case. See id. at 822,
830. However, those commissioners disagreed on what
test and remedy the ALJ should apply on remand. See
id. at 822. The fourth commissioner would not have
reached these issues, because he believed the operator’s
exclusion from the inspection should have no effect on
the case. See id.

13
The plurality opinion in SCP I approved of the
ALJ’s statement that “the discretion of MSHA
inspectors in conducting inspections must be ‘balanced
with the fundamental right of a mine operator to be
present during an inspection.’”
See id. at 826
(emphasis added). They observed that “the statutory
language” of 30 U.S.C. § 813(f) “is mandatory,”
requiring that “a representative of the operator . . .
shall be given an opportunity to accompany the
Secretary” during an inspection. Id. at 827 (emphasis
in original). However, they concluded that the final
sentence of § 813(f) “plainly provides that enforcement
actions otherwise properly taken by MSHA cannot be
vacated due to the failure of an inspector to comply
with any of [that subsection]’s requirements.” See id.
at 834. That final statutory sentence—which, as noted
supra in this petition’s Statement of the Case, was
described by the D.C. Circuit in the instant matter as
“cryptic” —provides that “[c]ompliance with this
subsection shall not be a jurisdictional prerequisite to
the enforcement of any provision of this chapter.” 30
U.S.C. § 813(f).
The plurality, understandably, was “extremely
troubled” by the possibility that this could leave
operators with “no legal remedy” for violations of their
walkaround rights. See 31 FMSHRC at 834. “This
idea,” they explained, “is contrary to our fundamental
belief in ordered liberty, and to the development of
Anglo-American law since the Magna Carta nearly 800
years ago.” Id. However, they noted that “[t]he only
possible basis to overcome the statutory language
would have to be constitutional in nature, such as a
violation of the Due Process Clause”—a “complex issue”

14
that they declined to reach because it had “not been
presented” to them. See id. at n.15. Instead, drawing
upon this Court’s Fourth Amendment jurisprudence,
they concluded that an operator’s fundamental
walkaround rights could be harmonized with § 813(f)’s
no-jurisdictional-prerequisite language by excluding
evidence resulting from the inspection if the operator
could demonstrate the existence of prejudice resulting
from the violation of his rights. See id. at 834–37
(citing, inter alia, United States v. Leon, 468 U.S. 897
(1984); Terry v. Ohio, 392 U.S. 1 (1968); Mapp v. Ohio,
367 U.S. 643 (1961); Elkins v. United States, 364 U.S.
206 (1960); Weeks v. United States, 232 U.S. 383
(1914)).
Another commissioner concurred with the plurality
on everything except in their “proposed ‘remedy’ for an
inspector’s impermissible failure to grant walkaround
rights.” Id. at 838. Instead, he believed the better
route would be for the ALJ to determine whether the
denial of walkaround rights prevented the operator
from offering probative evidence to support its case,
and if it did, then for the ALJ simply to exercise his
discretion to impose an appropriate penalty. See id. at
839.
The fourth commissioner dissented from his other
three colleagues’ opinion that it was unlawful for the
inspector to exclude the operator from his inspection.
Relying on § 813(f)’s no-jurisdictional-prerequisite
language, he reasoned that “[u]nlike in Fourth
Amendment cases, to which my colleagues cite, the
health and safety violations observed by [the inspector]

15
do not constitute evidence obtained by virtue of an
illegal action.” See id. at 841.
On remand, the ALJ thus had to make sense of the
three-way decision of the Commission. He was
required to consider the effect of the denial of the
operator’s walkaround rights on its ability to present
its case, but he was not given any binding directive on
how to go about doing so. He opted to go in a different
direction from either test proposed by the Commission,
seizing instead on the plurality’s passing reference to
not having been presented with Due Process
arguments. See Sec. of Labor, Mine Safety and Health
Admin. (MSHA) v. SCP Invs., LLC, 32 FMSHRC 119,
2010 WL 390288, at *6 (Jan. 5, 2010) (“SCP II”). He
observed that a majority of the commissioners had
agreed both that there was jurisdiction to conduct the
inspection and that the operator’s walkaround rights
were violated. See id. at *2. But, he reasoned, while “a
mine operator cannot successfully attack citations on
jurisdictional grounds simply because it was not
available during an inspection or refused to
participate,” this “[s]urely . . . does not give the
Secretary the authority to arbitrarily deny a
fundamental statutory walkaround right that the
legislative authors noted the Secretary was ‘required’
to respect.” Id. at *3.
The SCP II ALJ concluded that the operator “was
the victim of an abuse of government authority that
constitutes a due process violation,” explaining thus:
The exercise of a section [813(f)] right is not
contingent on an operator’s showing of a need to
accompany the inspector for purposes of

16
litigation. Although walkaround rights are
qualified rather than absolute, they can only be
denied pursuant to the Secretary’s regulations,
or in instances where there is a legitimate
government need to preclude the mine operator’s
participation. Government officials must not be
permitted to arbitrarily decide when statutory
rights will be granted. Consequently, the
unreasonable denial of a section [813(f)]
walkaround right is prejudicial per se regardless
of whether it interferes with an operator’s ability
to defend itself.”
Id. at *9. He further found that the operator had also
in fact suffered actual prejudice, but, regardless, the
per se prejudice provided a sufficient basis for vacating
the citations. See id. at *10.
Commission precedent was already rather confused
by the time the SCP proceedings drew to a close, but
the splintered opinions and the final ALJ decision
collectively signaled a clear majority view that there
are constitutional limits on MSHA inspectors’
discretion to exclude operators from inspections,
notwithstanding § 813(f)’s no-jurisdictionalprerequisite language. Subsequent cases affirmed this
modest principle, while diverging on how to apply it.
For example, in Secretary of Labor, Mine Safety and
Health Administration (MSHA) v. DJB Welding
Corporation, the ALJ found that an inspector did not
abuse his discretion by inspecting a building that was
being used by a contractor at a plant site while the
contractor was not present, because the inspector only
did so after repeatedly attempting to contact the

17
contractor, waiting until the end of his inspection to
enter the building, and doing so while accompanied by
the plant manager. See 32 FMSHRC 728, 734–35
(June 28, 2010). In the case of Big Ridge, Incorporated
v. Secretary of Labor, Mine Safety and Health
Administration (MSHA), after finding that the
deprivation of an operator’s walkaround rights
constituted a Due Process violation, see 36 FMSHRC
1677, 1732 (June 19, 2014), and that the operator was
actually prejudiced by this violation, see id. at 1736, the
ALJ applied the exclusionary rule against some—but
not all—of the evidence obtained from the offending
inspection, see id. at 1737–40.
However, the ALJ’s decision in the instant Rain for
Rent matter is a stark departure from the principle
that there are any effective constitutional constraints
on MSHA inspectors. Here, the ALJ found that it was
not an arbitrary denial of Rain for Rent’s walkaround
rights under § 813(f) for the Inspector to enter Rain for
Rent’s truck and conduct a search without first making
any effort at all to give Mr. Tejeda the opportunity to
oppose the search or accompany his search. See App.,
infra, 37. He also found that this was not an abuse of
discretion. See id. at 38–39. In making these findings,
the ALJ gave no consideration to whether it was
feasible or impractical for the Inspector to attempt to
contact Mr. Tejeda before intruding on the truck;
rather, it was sufficient that the Inspector suspected a
violation had occurred. See id. This is all the more
notable when one recalls that in SCP, the inspector at
least articulated a reason for his decision to exclude the
operator from his inspection, however mistaken his
reason may have been as a matter of law. Here, the

18
Inspector had no reason to deny Rain for Rent’s
walkaround rights.
When the Commission declines to review the
decision of an ALJ, that decision becomes the final
decision of the Commission. See 30 U.S.C. § 823(d)(1).
By declining to review decisions like the instant one,
the Commission is effectively applying different legal
standards to different parties in similar situations—
but “[a] fundamental norm of administrative procedure
requires an agency to treat like cases alike. If the
agency makes an exception in one case, then it must
either make an exception in a similar case or point to
a relevant distinction between the two cases.” Wester
Energy, Inc. v. Fed. Energy Regulatory Comm’n, 473
F.3d 1239, 1241 (D.C. Cir. 2007). An agency acts
arbitrarily and capriciously when it “fail[s] that basic
test.” See SeaWorld of Fla., LLC v. Perez, 748 F.3d
1202, 1220 (D.C. Cir. 2014) (Kavanaugh, J.,
dissenting). The Commission’s precedent on these
issues has become so inscrutably inconsistent that it is
impossible for mine operators within its regulatory
purview to have even the most basic understanding of
what their constitutional rights are vis-à-vis MSHA
inspections, much less what their remedies for
violations of such rights might be. Rain for Rent asks
this Court to provide clarity to that confusion.

19
II. This Court’s precedent is ambiguous on
whether the Constitution requires MSHA
inspectors to comply with the Mine Act’s
procedural requirements.
A significant contributing factor to this state of
doctrinal confusion is this Court’s underdeveloped
precedent on the interaction between the Constitution
and the Mine Act. In Donovan v. Dewey, this Court
held that the Mine Act’s warrantless inspection
program comported with the requirements of the
Fourth Amendment because the scheme satisfied three
conditions: (1) “there is a substantial federal interest in
improving the health and safety conditions in the
Nation’s underground and surface mines”; (2) Congress
determined “that a system of warrantless inspections
was necessary if the law is to be properly enforced and
inspection made effective”; and—most importantly—
(3) “the statute’s inspection program, in terms of the
certainty and regularity of its application, provides a
constitutionally adequate substitute for a warrant.”
See 452 U.S. 594, 602–03 (1981) (internal quotation
marks omitted). The ambiguity here concerns what is
meant by “certainty and regularity.”
At first glance that might seem surprising. After
all, if the phrase “certainty and regularity” is given a
common-sense interpretation, it clearly does not
describe the procedures that were applied to Rain for
Rent in this case. When the D.C. Circuit essentially
declares that neither it nor the Commission knows
what the Mine Act’s no-jurisdictional-prerequisite
language means, see App., infra, 10 & n.4, then that is
hardly a situation characterized by “certainty.” And

20
“regularity” is probably not the first word one would
use to describe an MSHA inspector’s capricious refusal
to follow his own agency’s directives for conducting
warrantless inspections. However, this Court has
never had the occasion to explicitly observe that
“certainty and regularity” requires an agency to
actually comply with the warrantless inspection
procedures found in its own enabling statute and in the
written directives that it provides to its own inspectors
and mine operators. That silence is understandable, as
the question seems never to have been squarely
presented to this Court; and, at any rate, one would
think the point should be an obvious one. But as it
turns out, that silence has led lower tribunals to find
that “certainty and regularity” in warrantless
inspection procedures depends entirely on what the
agency inspection procedures say rather than on what
the agency does.
In the Dewey Court’s discussion of “certainty and
regularity” in the Mine Act’s application, it identified
three considerations. First, it noted that “the Act
requires inspection of all mines and specifically defines
the frequency of inspection.” 452 U.S. at 603–04
(emphasis in original). Second, the Court observed that
“the standards with which a mine operator is required
to comply are all specifically set forth in the Act or in
Title 30 of the Code of Federal Regulations.” Id. at 604.
The third guarantee of “certainty and regularity”
identified by the Dewey Court was described thus:
Finally, the Act provides a specific mechanism
for accommodating any special privacy concerns
that a specific mine operator might have. The

21
Act prohibits forcible entries, and instead
requires the Secretary, when refused entry onto
a mining facility, to file a civil action in federal
court to obtain an injunction against future
refusals. 30 U.S.C. § 818(a) (1976 ed., Supp. III).
This proceeding provides an adequate forum for
the mineowner to show that a specific search is
outside the federal regulatory authority, or to
seek from the district court an order
accommodating any unusual privacy interests
that the mineowner might have.
Id. at 604–05. There have been relatively few cases in
the past 40 years that have interpreted and applied
Dewey.
The D.C. Circuit, in the opinion from which this
petition follows, stated that “Dewey is, frankly,
ambiguous as to whether this discussion of section
[818] is part of its Fourth Amendment analysis, or
simply a description of an additional—but not
constitutionally required—protection afforded by the
Mine Act.” App., infra, 13. Rain for Rent does not see
quite so much uncertainty here as the D.C. Circuit
does. The Dewey Court’s discussion of § 818 is
obviously part of its Fourth Amendment analysis, as
can plainly be seen by the sentence that immediately
follows it: “Under these circumstances, it is difficult to
see what additional protection a warrant requirement
would provide.” 452 U.S. at 605. But it is nevertheless
true that Dewey never explicitly states whether the
three examples of “certainty and regularity” it
identifies in the Mine Act are all essential to satisfy
Fourth Amendment concerns, or whether one or

22
another could perhaps be overlooked without running
afoul of the Constitution.
The D.C. Circuit below seemed confused on this
question, relying on the case of New York v. Burger, in
which this Court upheld a New York warrantless
search regulatory scheme that does not appear to have
contained any provision analogous to that of § 818 in
the Mine Act. See 482 U.S. 691, 711–12 (1987). In
doing so, the D.C. Circuit appears to have missed the
forest for the trees; after all, Burger, like Dewey,
repeatedly emphasized that for the “certainty and
regularity” prong to be satisfied, the scheme in
question “must limit the discretion of the inspecting
officers,” see id. at 703, 711–12, and Burger listed
various examples of such constraints in the scheme
under consideration, including that inspections could
only be made during certain times of day, and on
certain types of records and objects, see id. The Burger
Court apparently concluded that it should go without
saying that a necessary corollary to such regulatory
constraints on discretion is that for them to have any
relevance to the constitutional inquiry, the inspectors
must actually obey them—which, in the end, is Rain for
Rent’s entire point, no matter whether one frames it as
a Fourth Amendment issue or a Due Process issue.
Nevertheless, the fact remains that this Court has
never definitively stated whether the Mine Act’s
guarantee of “certainty and regularity” in its
warrantless inspection scheme is fatally undermined
when an inspector, exercising his discretion, refuses to
adhere to the limitations that are explicitly provided in
the Mine Act, as well as in his own agency’s directives.

23
The instant case presents an opportunity for this Court
to address that issue and provide clarity, and
assurance, to entities subject to the Mine Act’s
inspection protocols.
III.

The D.C. Circuit’s opinion effectively
obviates the Mine Act’s prohibition of
forcible entry by MSHA inspectors.

Dewey held the Mine Act’s warrantless inspection
program complies with the Fourth Amendment because
it sufficiently accommodates mine operators’ privacy
interests by, inter alia, prohibiting inspectors from
making forcible entry. The D.C. Circuit’s opinion can
be read to nullify that prohibition on forcible entry. In
this case, an inspector denied Rain for Rent its
walkaround rights —in violation of both the Mine Act
and of the MSHA’s own PPM. The precedent set by the
D.C. Circuit’s opinion below tells any MSHA inspector
that walkaround rights and the right to question an
inspection can be denied, without consequence. Rain
for Rent submits that however “ambiguous” or “cryptic”
Dewey and § 813(f) may be, surely this is not what
those authorities contemplate.
There is no need for this Court to wait for these
conflicts to develop further or to resolve themselves in
future cases, because there is effectively nowhere left
for them to develop. The Commission has already
signaled its unwillingness to resolve the conflict in its
own precedents by declining to review the ALJ’s
opinion in this case. The D.C. Circuit’s opinion has
only further muddled the picture, in the forum where

24
a very large plurality of MSHA appeals are filed.1 In
other words, jurisprudence on the interaction between
the Constitution and the Mine Act has reached an
intractable state of confusion in the forums where these
issues are ordinarily heard. This Court is the only
forum capable of bringing clarity soon and definitively
to this area of the law, and this Court is unlikely ever
to see a cleaner factual presentation on which to bring
such clarity. For this reason, Rain for Rent asks the
Court take up these issues, grant this Petition, and
resolve the significant Constitutional issues that have
lingered since SCP I.

1

A Westlaw search for “MSHA” among all federal jurisdictions
yields 306 cases in federal courts of appeals, 113 of which are from
the D.C. Circuit. The Sixth Circuit has the second most cases,
with forty-five.

25
CONCLUSION
The Court should grant the petition for a writ of
certiorari.
Respectfully submitted,
JOSEPH CHRISTOPHER HALL
ROSE LAW FIRM,
A PROFESSIONAL ASSOCIATION
P.O. Box 4800
Fayetteville, Arkansas 72702
(479) 695-1330
jhall@roselawfirm.com

BYRON J. WALKER
Counsel of Record
TIM BOE
ROSE LAW FIRM,
A PROFESSIONAL ASSOCIATION
120 East Fourth Street
Little Rock, Arkansas 72201
(501) 375-9131
tboe@roselawfirm.com
bwalker@roselawfirm.com

Counsel for Petitioner

